App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ABDIKARIM KARRANI,
Plaintiff-Appellant,
v.
JETBLUE AIRWAYS
CORPORATION, a
Delaware corporation,

No. 19-35739
D.C. No.
2:18-CV-01510-RSM
MEMORANDUM*
(Filed Oct. 16, 2020)

Defendant-Appellee.

Appeal from the United States District Court
for the Western District of Washington
Ricardo S. Martinez, Chief District Judge, Presiding
Submitted October 6, 2020**
Seattle, Washington
Before: GRABER and W. FLETCHER, Circuit Judges,
and FREUDENTHAL,*** District Judge
Following an unrelated emergency medical landing, Abdikarim Karrani, a Somali by birth and an African American citizen, was removed from a JetBlue
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Nancy D. Freudenthal, United States
District Judge for the District of Wyoming, sitting by designation.

App. 2
ﬂight after an alleged altercation with a ﬂight crew
member. JetBlue refused to re-board him. On summary judgment, the district court dismissed Karrani’s
claims of unlawful discrimination under 42 U.S.C.
§ 1981. We have jurisdiction under 28 U.S.C. § 1291,
and we afﬁrm.
We assume that Karrani established a prima facie
case. Karrani argues that summary judgment was improper because he raised triable issues of fact which
reasonably support the conclusion that race was a motivating factor in JetBlue’s decisions to remove and
then to refuse to reboard him. Reviewing de novo,
McGinest v. GTE Serv. Corp., 360 F.3d 1103, 1112 (9th
Cir. 2004), the district court correctly determined that
JetBlue’s reliance on 49 U.S.C. § 44902 constitutes a
legitimate and non-discriminatory reason for its decisions. Section 44902 provides an air carrier with permissive authority to “refuse to transport a passenger
or property the carrier decides is, or might be, inimical
to safety.” 49 U.S.C. § 44902(b) (emphasis added).
Karrani argues that the airline exceeded its § 44902
authority because the removal decision was made
without further investigation and was based on the report of a biased ﬂight attendant. However, the airline
pilot was entitled to accept the attendant’s report when
the pilot made the decision to refuse transport. See,
Cordero v. Cia Mexicana De Aviacion, S.A., 681 F.2d
669, 672 (9th Cir. 1982) (“[T]he test . . . rests upon the
facts and circumstances of the case as known to the
airline at the time it formed its opinion and made its
decision. . . .” (quoting with approval Williams v. Trans

App. 3
World Airlines, 509 F.2d 942, 948 (2d Cir. 1975) (internal quotation marks omitted))). Considering the attendant’s report even if, on hindsight, it is exaggerated,
the airline pilot’s opinion under § 44902 was justiﬁed
by a reasoned and rational appraisal of the facts
known to the pilot at the time and was not arbitrary or
capricious.
Karrani also challenges the denial of his Federal
Rule of Civil Procedure 59(e) motion to amend the
judgment due to evidence that Karrani asserts is
newly discovered and was withheld by JetBlue. Because Karrani admits that he was in possession of this
evidence before summary judgment was entered, the
district court did not abuse its discretion in denying
the motion.
AFFIRMED.

App. 4
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
ABDIKARIM KARRANI,

Case No. C18-1510-RSM

Plaintiff,

ORDER DENYING
PLAINTIFF’S MOTION
TO ALTER OR AMEND
JUDGMENT AND
DENYING REQUEST
FOR SANCTIONS

v.
JETBLUE AIRWAYS
CORPORATION, a
Delaware corporation,
Defendant.
I.

(Filed Nov. 19, 2019)

INTRODUCTION

This matter comes before the Court on Plaintiff
Abdikarim Karrani’s Motion to Alter or Amend Judgment. Dkt. #87. On July 31, 2019, this Court granted
summary judgment dismissal of Plaintiff ’s claims
against Defendant JetBlue Airways Corporation (“JetBlue”) and entered judgment for JetBlue. Dkts. #84,
#85. On August 28, 2019, Plaintiff moved to alter or
amend the judgment on the basis that JetBlue withheld key documents that would have changed the outcome of the Court’s decision. Dkt. #87 at 3. JetBlue
opposes Plaintiff ’s Motion. Dkt. #100. Plaintiff separately moved for sanctions, Dkt. #86, which JetBlue
also opposes. For the reasons set forth below, the Court
DENIES Plaintiff ’s Motion to Alter or Amend Judgment and his request for sanctions.

App. 5
II.

BACKGROUND

On July 31, 2019, this Court granted summary
judgment dismissal of Plaintiff ’s claims against JetBlue for unlawful discrimination under 42 U.S.C.
§ 1981. Dkt. #84. The same day, the Court entered
judgment for JetBlue that dismissed all claims in the
underlying lawsuit. Dkt. #85. On August 28, 2019,
Plaintiff filed the instant motion claiming that JetBlue improperly withheld three “critical” documents:
(1) Section 7 of the Flight Attendant Manual (“FAM
§ 7”); (2) the Pilot Manual (“PM”) and (3) various pilot
training materials “that may provide guidance to pilots
on addressing issues like race and implicit bias” related to alleged passenger misconduct. Dkt. #87 at 2-3.
A. Production of SSI Documents
On December 12, 2018, parties submitted their
joint status report and discovery plan. Dkt. #10. The
plan discussed the potential need for parties to secure
approval from the Transportation Security Administration (“TSA”) for production of material marked as
Sensitive Security Information (“SSI”), as required by
federal law. Dkt. #10 at 3-4 (citing 49 C.F.R. § 1520 et
seq.). TSA reviews documents containing SSI under
“the 525(d) process,” wherein individuals may obtain
access to SSI in civil litigation if they can demonstrate
substantial need for the information in preparation of
their case and pass a TSA background check. See Department of Homeland Security Appropriations Act,
2007, Pub. L. No. 109-295, § 525, 120 Stat. 1382 (Oct.

App. 6
4, 2006). Parties agreed that because Plaintiff would
potentially seek documents containing SSI in discovery, JetBlue would produce a log of all material withheld as SSI so that Plaintiff could evaluate whether he
would request access to those documents from TSA.
Dkt. #10 at 4.
B. Plaintiff ’s Discovery Requests
On February 6, 2019, Plaintiff served his ﬁrst set
of discovery requests on JetBlue. This included Request for Production (“RFP”) 24, which requested “all
documents related to the rules, policies, procedures,
contract provisions, federal or state regulations or laws
in effect at JetBlue or governing JetBlue’s actions for
the removal of a passenger from a ﬂight before during,
or after the ﬂight.” Dkt. #88-1 at 17. In its response
dated March 15, 2019, JetBlue stated that an excerpt
from its Flight Operations manual—the FAM § 7—
contained information responsive to RFP 24. Dkt. #881 at 35. However, because this excerpt of the manual
was designated as SSI, TSA needed to approve its production to Plaintiff. Id. Discovery closed on April 29,
2019. Dkt. #11. On May 1, 2019, Plaintiff ’s counsel contacted TSA regarding access to the FAM § 7. Dkt. #881 at 64. Counsel was redirected to various TSA staff
until ﬁnally reaching TSA attorney Kate Gannon on
May 22, 2019, who initiated the SSI review process. See
id. at 60-64. On June 10, 2019, TSA asked JetBlue to
provide them with FAM § 7 so that TSA security experts could identify and redact the SSI with specificity. Id. at 86. TSA notiﬁed Plaintiff ’s counsel that if

App. 7
counsel determined he had a substantial need for the
SSI after seeing the redacted version of the FAM § 7,
Plaintiff could contact TSA again to initiate the Section 525(d) process. Id. JetBlue provided the documents to TSA one week later, on June 17, 2019. Id. at
101. TSA returned the redacted version of the FAM § 7
to JetBlue on July 3, 2019, who in turn produced FAM
§ 7 with TSA-approved redactions to Plaintiff on July
8, 2019. Id. at 116. On July 11, 2019, counsel for Plaintiff contacted TSA explaining that Plaintiff needed information contained in the redacted material. Dkt. #81
at ¶ 6. The next day, JetBlue produced a second version
of FAM § 7 which Plaintiff ﬁled under seal in support
of the instant motion. Dkt. #88-1 at 133-34.
On July 21, 2019, Plaintiff ’s counsel “realized that
Section 7 of the FAM, would likely be the same procedures for pilots” and asked JetBlue whether a manual
existed for pilots similar to the manual for ﬂight attendants. Dkt. #88 at ¶ 8; Dkt. #88-1 at 136. JetBlue
conﬁrmed that JetBlue’s Flight Operations Manual,
which included the FAM § 7, contained separate excerpts that applied to pilots (referred to hereafter as
“the PM”). Plaintiff then notiﬁed TSA that JetBlue
would provide TSA with the PM for review and redaction. Plaintiff also asked that TSA conduct the review
“as soon as possible” given parties’ late August trial
date. Dkt. #88-1 at 136. On July 28, 2019, Plaintiff sent
TSA a follow-up message asking whether JetBlue had
provided them with the PM. Id. at 143. In this same
email, Plaintiff asked JetBlue whether there were
any training materials for the pilots for addressing

App. 8
customer disturbances and, if so, to also provide those
to TSA for review. Id. On July 29, 2019, JetBlue conﬁrmed that it had submitted the PM to TSA that morning but did not mention any training materials. Id. at
146. On July 31, 2019, the Court dismissed this case on
summary judgment before JetBlue produced the PM or
any pilot training materials to Plaintiff. See Dkt. #84.
III.

DISCUSSION

A. Motion to Strike
As an initial matter, JetBlue moves to strike Plaintiff ’s Proposed Findings of Fact and Conclusions of
Law (“the PFF”). Dkt. #99 at 12; Dkt. #100 at 8. Plaintiff ﬁled the PFF as an exhibit to both his Motion to
Amend and Motion for Sanctions. See Dkts. #86-1, #871. The PFF totals forty-four pages and includes both
proposed factual ﬁndings and legal argument. JetBlue
argues that the Court must strike Plaintiff ’s PFF pursuant to the local rules, which limit motions to twelve
pages unless the party successfully moves to ﬁle an
overlength brief. Dkt. #99 at 12 (citing Local Rules
W.D. Wash. LCR 7(e)(4) and 7(f )). Plaintiff responds
that “ﬁndings of fact are appropriate in sanctions motions” and the PFF therefore aids the Court in reaching
its decision. Dkt. #108 at 5 (citing Wyle v. R.J. Reynolds
Indus., Inc., 709 F.2d 585, 589 n.2 (9th Cir. 1983)).
Plaintiff does not respond to JetBlue’s Motion to Strike
the PFF with respect to his Rule 59(e) Motion. See Dkt.
#110.

App. 9
The Court ﬁnds nothing in Wyle supporting Plaintiff ’s argument that he may ﬁle a forty-four-page document containing legal argument and proposed factual
ﬁndings to support either his Motion for Sanctions or
his Rule 59(e) Motion. Instead, Wyle stands for the
proposition that an appellate court reviews a district
court’s factual ﬁndings on a motion for sanctions under
the clearly erroneous standard. Wyle, 709 F.2d at 589
n.2. Given that Plaintiff declined to move to ﬁle an
overlength brief, the Court must grant JetBlue’s Motion to Strike the PFF as to both of Plaintiff ’s motions.
To do otherwise would condone Plaintiff ’s effort to circumvent the twelve-page limit See Local Rules W.D.
Wash. LCR 7(e)(4). Accordingly, JetBlue’s Motions to
Strike, Dkts. #99, #100, are GRANTED.
B. Standard of Review
A district court has considerable discretion when
considering a motion to alter or amend a judgment under Rule 59(e). Turner v. Burlington N. Santa Fe R. Co.,
338 F.3d 1058, 1063 (9th Cir. 2003). There are four
grounds upon which a Rule 59(e) motion may be
granted: (1) the motion is necessary to correct manifest
errors of law or fact upon which the judgment is based;
(2) the moving party presents newly discovered or previously unavailable evidence; (3) the motion is necessary to prevent manifest injustice; or (4) there is an
intervening change in controlling law. Id. Vacating a
prior judgment under Rule 59(e) is an “extraordinary
remedy, to be used sparingly in the interests of finality and conservation of judicial resources.” Carroll v.

App. 10
Nakatani, 342 F.3d 934, 945 (9th Cir. 2003). “A Rule
59(e) motion may not be used to raise arguments or
present evidence for the ﬁrst time when they could reasonably have been raised earlier in the litigation.” Id.
C. “Newly Discovered” Evidence under
Rule 59
Plaintiff does not argue manifest error by the
Court in its prior ruling, nor does he identify a change
in the controlling law. Instead, Plaintiff submits the
FAM § 7 as “new evidence” compelling the Court to reverse its previous ruling. Dkt. #87 at 3. Plaintiff also
contends that the PM and training materials likely
contain information that would change the Court’s
summary judgment analysis. Id. at 2.
The Court ﬁnds that the FAM § 7 is not “newly discovered” evidence for the purposes of Rule 59. Plaintiff
admits that he received Version 2 of the FAM § 7 on
July 12, 2019 but failed to raise it before the Court’s
summary judgment ruling on July 31, 2019. Dkt. #87
at 2. He justiﬁes his delay on the basis that he anticipated discussing the manual at oral argument. Dkt.
#110 at 2. The local rules, however, clarify that all motions are decided without oral argument unless otherwise ordered by the court. Local Rules W.D. Wash. LCR
7(b)(4). Plaintiff also argues that since he discovered
the evidence only after brieﬁng was complete on the
summary judgment motion, he could not reasonably
have used the information before the Court dismissed
the case. Dkt. #110 at 2.

App. 11
The ﬁrst criterion for reconsideration based on
“newly discovered evidence” requires that the evidence
in question was not in the moving party’s possession at
the time of “trial.” Albuquerque v. Arizona Indoor Soccer, Inc., 880 F.2d 416 (9th Cir. 1989). In cases where
the court dismisses the case on summary judgment,
the moving party must not have had possession of the
evidence prior to the court’s disposition on the motion
for summary judgment. 11 Wright & Miller, Fed. Prac.
& Proc. Civ. § 2859 (3d ed.2019) (“Under both rules [59
and 60], if [the evidence] was in the possession of the
party before the judgment was rendered it is not newly
discovered and does not entitle the party to relief.”); see
also Branch Banking & Tr. Co. v. Frank, No. 2:11-CV1366 JCM CWH, 2013 WL 6669100, at *7 (D. Nev. Dec.
17, 2013) (citing Engelhard Indus., Inc. v. Research Instrumental Corp., 324 F.2d 347, 352 (9th Cir.1963)).
Since Plaintiff possessed this evidence prior to the
court granting summary judgment, these documents
are not “newly discovered.”
After brieﬁng on a motion is complete, parties may
bring matters to the attention of the court by requesting leave to ﬁle a sur-reply or a supplement. Here,
Plaintiff possessed the FAM § 7 prior to the Court’s order of dismissal yet failed to bring it to the Court’s attention until now. By not requesting leave to ﬁle a surreply or a supplement, Plaintiff relinquished his ability to have the FAM § 7 considered as part of the summary judgment motion. See Pac. Aerospace & Elecs.,
Inc. v. SRI Hermetics, Inc., No. CV-05-0155-AAM, 2006
WL 47540, at *3 (E.D. Wash. Jan. 9, 2006) (Rejecting

App. 12
plaintiff ’s argument that no mechanism allowed it to
present evidence prior to entry of order of dismissal);
see also Frank, 2013 WL 6669100, at *7 (same). Moreover, the same flowchart Plaintiff now relies on in
the instant motion was produced as early as June 11,
2019—six days before Plaintiff ﬁled his response
brief—but was not referenced until this point. Dkt.
#102 at ¶ 4; Dkt. #105 at 29. To allow a party to present
available evidence after an adverse ruling has been
made “would contradict every notion of judicial economy” and cannot be considered “newly discovered.”
Frank, 2013 WL 6669100, at *7.
Plaintiff also argues that the Court must vacate
its judgment based on the missing PM and training
materials, since they “likely contain[ ] speciﬁc procedures for the captain to follow” that were applicable to
Mr. Karrani’s removal from the ﬂight. Dkt. #87 at 3.
Again, the Court is not convinced by Plaintiff ’s argument. On July 21, 2019, Plaintiff notiﬁed TSA of the
PM and requested that it conduct its review for SSI “as
soon as possible” because of the upcoming trial date.
Dkt. #88-1 at 136. Despite urging TSA to expedite its
review because of the approaching trial date, Plaintiff
declined to ﬁle a Rule 56(d) declaration to request that
the Court either deny or defer consideration of JetBlue’s summary judgment motion to allow Plaintiff
time to receive and review the materials. See Fed. R.
Civ. P. 56(d). For that reason, when the Court ruled
on JetBlue’s motion, it had no knowledge of any of
the materials that Plaintiff now contends would have
changed the outcome of this case. Plaintiff again

App. 13
requests reconsideration for reasons he could have
raised before an adverse ruling. Granting such a request undermines both the purpose of Rule 56 and judicial economy. See Ross v. F/V MELANIE, C95-654Z,
1996 WL 521413, at *1 (W.D. Wash. Aug. 8, 1996)
(Denying motion to amend judgment where plaintiff
failed to submit afﬁdavit under Fed. R. Civ. P. 56 to request additional time to respond at summary judgment stage).
For these reasons, Plaintiff ’s failure to ﬁle a surreply, supplement, Rule 56 affidavit, or any other
notice that would have advised the Court of these discovery issues prior to ruling is sufﬁcient to warrant denial of Plaintiff ’s Motion under Rule 59(e).
D. Discovery Misconduct under Rule 60(b)(3)
Although Plaintiff does not expressly reference
Fed. R. Civ. P. 60(b)(3), his allegations of discovery
abuse by JetBlue and motion for sanctions require that
the Court also consider his Motion under Rule 60(b)(3).
When misconduct in discovery is alleged, courts apply
the Rule 60(b)(3) standard for Rule 59 motions. Jones
v. Aero/Chem Corp., 921 F.2d 875, 878 (9th Cir. 1990).
Rule 60(b)(3) permits a court to relieve a party of a ﬁnal judgment obtained through “fraud . . . misrepresentation, or misconduct by an opposing party.” Fed. R.
Civ. P. 60(b)(3). To prevail under Rule 60(b)(3), the moving party must (1) establish by clear and convincing
evidence that a judgment was obtained by fraud, misrepresentation, or misconduct, and (2) that the conduct

App. 14
complained of prevented the moving party from fully
and fairly presenting the case. Hausman v. Holland
Am. Line-U.S.A., No. CV13-0937 BJR, 2016 WL 51273,
at *2 (W.D. Wash. Jan. 5, 2016) (citing Bunch v. United
States, 680 F.2d 1271, 1283 (9th Cir. 1982)). Rule
60(b)(3) “is aimed at judgments that were unfairly obtained, not at those that are merely factually incorrect.” Id. (citing In re MIV Peacock on Complaint of
Edwards, 809 F.2d 1403, 1405 (9th Cir. 1987)). In the
context of discovery disputes, failure to disclose or produce materials requested in discovery may constitute
misconduct under Rule 60(b)(3). Jones, 921 F.2d at 879.
Courts disagree on whether such misconduct includes
accidental omissions or is limited to instances where
the non-moving party engaged in intentionally malicious behavior. Hausman, 2016 WL 51273, at *3 (collecting cases).
i. The FAM § 7
Upon review of the record, the Court ﬁnds that
JetBlue’s delayed production of the FAM § 7 cannot be
blamed on unilateral discovery misconduct by JetBlue.
On the contrary, it appears that parties’ joint failure to
develop a clear discovery process regarding SSI-designated material resulted in the delays. Plaintiff alleges
that JetBlue “used the SSI objection as a sword by
falsely claiming that the FAM § 7 had to be withheld
in entirety” and should have produced a redacted version of the FAM § 7 on March 15, 2019. Id. at 7. Plaintiff is incorrect. The information that constitutes SSI
changes depending on factors such as timing and

App. 15
proposed recipients of the material. See Department of
Homeland Security Appropriations Act, 2007, Pub. L.
No. 109-295, § 525, 120 Stat. 1382 (Oct. 4, 2006); see
also 49 C.F.R. § 1520 et seq. For that reason, federal law
authorizes only TSA—not private airlines—to determine what material must be redacted as SSI versus
what may be produced to litigants:
Congress has delegated to the TSA the determination of what information would be
detrimental to the safety of air transportation if disclosed. . . . Sensitive security information, by its very nature, cannot be precisely
identiﬁed in advance. Moreover, . . . what is
sensitive security information, that is, what
information would be detrimental to air
transportation if disclosed, changes with the
circumstances.
Chowdhury v. Nw. Airlines Corp., 226 F.R.D. 608, 612
(N.D. Cal. 2004). 49 C.F.R. § 1520.5(b)(1) designates security plans in ﬂight operation manuals as “information constituting SSI,” and the footer on every page
of the FAM § 7 plainly reads, in part: “No part of this
record may be disclosed to persons without a ‘need to
know,’ as deﬁned in CFR parts 15 and 1520, except
with the written permission of the administrator of the
Transportation Security Administration or the Secretary of Transportation.” See generally Dkt. #90 (emphasis added). Accordingly, JetBlue properly withheld
the FAM § 7 until TSA could determine which portions
of the document should be redacted as SSI. JetBlue
therefore did not engage in misconduct by refusing to

App. 16
produce the FAM § 7 before TSA could conduct the SSI
review.
Other issues that delayed the production of FAM
§ 7 cannot be blamed solely on JetBlue. JetBlue timely
notiﬁed Plaintiff about the FAM § 7 on March 15, 2019,
but Plaintiff ’s counsel waited until May 1, 2019—more
than six weeks later—to contact TSA about SSI redactions. Dkt. #88-1 at 64. Production was further delayed
by Plaintiff ’s counsel’s lack of knowledge regarding
how to contact TSA for SSI review. See id. at 60-64
(Plaintiff was redirected to various TSA staff before
reaching attorney Kate Gannon on May 22). Because
of this delay, TSA did not receive the materials from
JetBlue until mid-June, and it took several weeks for
TSA to review the information and provide their redactions to JetBlue for production in early July. Id. at 86.
JetBlue undoubtedly could have expedited this
process by reaching out directly to TSA counsel or, at a
minimum, providing Plaintiff with the proper contact
information for TSA’s attorneys. However, despite
Plaintiff ’s argument that “typical procedure” for SSI
material required JetBlue to send its requests directly
to TSA, Dkt. #108 at 2, both parties’ actions comported
with their discovery plan. Dkt. #10 at 4 (“JetBlue will
produce a log of any responsive Sensitive Security Information in discovery so that Plaintiff can evaluate
whether to pursue obtaining access.”). Based on this
language, JetBlue was not obligated to do more than
simply identify the responsive material containing
SSI in its privilege log and allow Plaintiff to decide
whether he would request access to the material. Such

App. 17
delays could have been avoided had parties developed
a more detailed discovery plan for production of SSI
material, including how parties would coordinate with
TSA to review and redact the material. Accordingly,
given Plaintiff ’s delays in reaching out to TSA and parties’ mutual failure to develop an appropriately detailed discovery plan for SSI material, Plaintiff cannot
blame production delays on misconduct by JetBlue.
ii. The PM and Training Materials
Plaintiff also alleges discovery misconduct by JetBlue with respect to withholding the PM and training
materials for pilots. Dkt. #87 at 2-3. On July 19, 2019,
Plaintiff ’s counsel notiﬁed JetBlue’s counsel that upon
review of the Flight Attendant Manual, “it occurred to
[him] that there must be a Pilot manual that discusses
removal and threat levels.” Dkt. #104 at 6. On July 21,
2019, counsel conferred telephonically on multiple
matters, including whether there were excerpts from
the FOM that applied separately to pilots. Id. at ¶¶ 45. Counsel for JetBlue agreed to inquire into manual
excerpts and, on July 29, 2019, produced the PM to
TSA for review. Dkt. #88-1 at 146. Plaintiff claims that
JetBlue should have initially listed the PM in its
March 15, 2019 privilege log, which only listed the
manual for ﬂight attendants without reference to the
corresponding manual for pilots. Id. at 27; Dkt. #87 at
2. JetBlue does not dispute that the PM should have
been listed in the privilege log alongside the FAM, but
counters that “neither JetBlue personnel assisting in
our discovery nor our ofﬁce, as counsel had thought to

App. 18
inquire as to manual excerpts related to passenger removals that were speciﬁc to pilots” because “the overwhelming focus of Plaintiff ’s discovery had been on the
actions of the Inﬂight crewmembers” rather than pilots. Dkt. #104 at ¶ 5.
On one hand, given that JetBlue’s summary judgment brieﬁng focused heavily on pilots’ authority to remove passengers, the Court is skeptical that it “never
occurred” to JetBlue staff or its counsel to inquire
about a manual for pilots. See generally Dkt. #52. However, not even Plaintiff ’s counsel thought to inquire
about a pilot manual until mid-July—despite the fact
that JetBlue had produced documents on the regulatory framework and contract of carriage provisions for
pilots months earlier, as well as other excerpts from
the Flight Attendant Manual. See Dkt. #104 at ¶ 5.
Plaintiff ’s counsel likewise failed to ﬁle a Rule 56 afﬁdavit to delay consideration of the summary judgment
motion once JetBlue conﬁrmed that it had a manual
for pilots. Moreover, while the term “misconduct” under
Rule 60(b)(3) may cover even accidental omissions, see
Jones, 921 F.2d at 879, JetBlue was in the process of
producing the document to Plaintiff when the Court
granted summary judgment dismissal. See Dkt. #88-1
at 146 (conﬁrming JetBlue sent PM to TSA for review).
This fact distinguishes this case from others addressing alleged misconduct under Rule 60(b)(3), wherein
withholding parties repeatedly denied the existence of
a document despite speciﬁc inquiries from the movant.
See, e.g., Hausman, 2016 WL 51273, at *2 (Non-movant
deleted and withheld emails, tampered with witness

App. 19
testimony, fabricated injuries and testiﬁed falsely); Anderson v. Cryovac, Inc., 862 F.2d 910, 928 (1st Cir. 1988)
(Defendant repeatedly “played possum” in response to
interrogatories and Rule 34 requests); Rozier v. Ford
Motor Co., 573 F.2d 1332, 1341 (5th Cir. 1978) (Nonmovant withheld document in violation of Court’s discovery order). In contrast, JetBlue promptly agreed to
search for and produce the document once Plaintiff
asked whether a pilot corollary to the FAM § 7 existed.
For these reasons, the Court ﬁnds that Plaintiff has
failed to establish by clear and convincing evidence
that JetBlue committed discovery misconduct warranting the extraordinary remedy sought by Plaintiff.
The Court likewise ﬁnds that Plaintiff has failed
to establish that JetBlue unlawfully withheld pilot
training materials. Plaintiff ’s Motion claims that JetBlue improperly withheld pilot training materials that
“may provide guidance to pilots on addressing issues
like race and implicit bias in the context of allegations
of customer misconduct.” Dkt. #87 at 2-3. This Court
previously compelled JetBlue to produce all documents
“related to the training received by JetBlue employees
on or relating to (a) race or national origin discrimination and (b) implicit bias that were current at the time
of Flight 263. . . .” Dkt. #50 at 9. On July 28, 2019,
Plaintiff ’s counsel wrote to JetBlue: “Since there were
training materials for the ﬂight attendants, one would
think there are training materials for the pilots right?
If so, if any of them require TSA review, please send
them along too or produce them.” Dkt. #88-1 at 143.
Counsel for JetBlue replied the following day, “[W]e are

App. 20
conferring with JetBlue regarding any related training
materials.” Id. at 146. Neither Plaintiff ’s original request nor JetBlue’s response references material related to race or implicit bias training. For that reason,
Plaintiff ’s contention that JetBlue withheld anti-bias
or anti-discrimination training material, in violation of
this Court’s previous order, is unfounded. JetBlue’s response likewise provides no indication that JetBlue
improperly withheld any pilot training materials. On
the contrary, JetBlue’s email simply indicates that it
would search for additional pilot training materials to
see if responsive documents existed.
Accordingly, the Court ﬁnds that Plaintiff has
failed to provide clear and convincing evidence of discovery misconduct under Rule 60(b)(3).
E. Effect of Procedural Manuals on Summary Judgment Analysis
The Court ﬁnds that Plaintiff has failed to meet
his respective burdens under Rule 59(e) or Rule
60(b)(3) to obtain the extraordinary remedy he seeks.
Nevertheless, given the lengthy process of accessing
SSI-designated material and the numerous discovery
disputes between these parties, the Court ﬁnds it necessary to address the merits of Plaintiff ’s motion to determine if granting his requested relief would prevent
any manifest injustice. Having reviewed the FAM § 7
and Plaintiff ’s descriptions of the PM and training materials, the Court is not persuaded that procedures for
ﬂight attendants and pilots contained in the FAM § 7,

App. 21
nor the anticipated information in the PM or training
materials, would have changed the Court’s analysis.
In granting summary judgment for JetBlue, the
Court found that Plaintiff failed to raise a triable issue
that JetBlue removed him from Flight 263 because of
his race and/or ethnicity. Dkt. #84 at 9. Plaintiff offered
no direct evidence of discrimination by Ms. Pancerman,
Captain Ouillette, or other members of the JetBlue
ﬂight crew. Id. at 6. For that reason, Plaintiff ’s Section
1981 claim hinged entirely on whether circumstantial evidence created an inference of discrimination
against Mr. Karrani. Id. (citing Dkt. #69 at 20-21). Circumstantial evidence for individual claims of discrimination is evaluated under the McDonnell Douglas
framework. White v. Cal., 754 Fed. Appx. 575, 576 (9th
Cir. 2019). If a plaintiff establishes a prima facie case,
then the burden shifts to the defendant to demonstrate
a legitimate, non-discriminatory reason for the adverse action. Upon doing so, the burden shifts back to
plaintiff to prove, with “specific and substantial” evidence, that the reason was merely pretext for intentional discrimination. Id. at 1152. On summary
judgment, the Court found that Plaintiff had not offered “speciﬁc and substantial” evidence raising a triable issue of pretext. Dkt. #84 at 9.
Plaintiff claims that the FAM § 7 provides “speciﬁc
and substantial” evidence that JetBlue’s reasons for
removing Mr. Karrani were merely pretext, and that
the missing PM and training materials would likely
provide such evidence. See Dkt. #86 at 10. Plaintiff ’s
argument relies on a line of employment law cases

App. 22
wherein an employer’s deviation from established policy or practice in terminating an employee constitutes
circumstantial evidence of discrimination. Dkt. #110 at
2 (citing Earl v. Nielsen Media Research, Inc., 658 F.3d
1108 (9th Cir. 2011); Anderson v. Wal-Mart Stores, Inc.,
No. 2:16-CV-00072-SAB, 2017 WL 1960673 (E.D. Wash.
May 11, 2017); Diaz v. Eagle Produce Ltd. P’ship, 521
F.3d 1201 (9th Cir. 2008); Brennan v. GTE Gov’t Sys.
Corp., 150 F.3d 21 (1st Cir. 1998)). The courts in these
employment cases found evidence of pretext where an
employer deviated from company policy or practice in
deciding to terminate an employee. Under this reasoning, Plaintiff argues, any deviation by JetBlue crewmembers from the Flight Operations Manual, which
includes the FAM § 7 and the PM, should likewise constitute evidence of pretext. Dkt. #110 at 2-3. Plaintiff
points to two ﬂowcharts provided in the FAM § 7 and
describes various ways in which JetBlue’s ﬂight crew—
speciﬁcally Ms. Pancerman and Captain Ouillette deviated from these step-by-step procedures. Dkt. #87 at
5-7. Plaintiff also argues that Ms. Pancerman violated
FAM § 7.2.7, despite the fact that this subsection refers
to unwanted touching between passengers. Id. at 6.
With respect to the missing PM, Plaintiff contends that
the manual “likely contains speciﬁc procedures”
breached by Captain Ouillette with respect to Mr. Karrani’s removal. Id. at 2.
The Court fmds Plaintiff ’s arguments unavailing.
First, the FAM § 7 explicitly preserves the ﬂight crew’s
discretion to deviate from its procedures. When responding to customer disturbances, ﬂight attendants

App. 23
may skip directly to the step of notifying the ﬂight
deck. Id. at 6 (“Depending on the severity of the disturbance, Crewmembers may need to bypass steps on
the ﬂow chart.”). The manual also states that “[s]ecurity incidents may require the use of irregular procedures that may deviate from established policies in the
Flight Attendant Manual. . . .” Dkt. #90 at 14. Accordingly, Plaintiff ’s claim that the FAM § 7 required the
crewmembers on Flight 263 to follow the same steps
set forth in the ﬂow chart is unsupported. See Dkt. #87
at 5 (arguing that the incident with Mr. Karrani was
required to end “in the air” at Step 1 of Flow Chart 71.) Moreover, the FAM § 7 does not specify—nor does
it attempt to specify—the proper procedure for responding to the unique conditions on Flight 263, which
involved a crewmember’s conflict with a passenger during an emergency landing. Accordingly, while Plaintiff
presents these employment cases as dispositive case
law, he fails to provide a sufﬁcient basis for applying
them here. The Court is therefore unpersuaded by
Plaintiff ’s argument that the procedures set forth in
the FAM § 7 raise a triable issue of pretext that saves
Plaintiff ’s discrimination claim from summary judgment.
Furthermore, none of the materials referenced in
Plaintiff ’s Motion change the Court’s analysis that the
captain’s decision to remove Mr. Karrani was proper as
a matter of law. See Dkt. #84 at 9. The undisputed fact
remains true that Captain Ouillette, who held exclusive decision-making authority to remove passengers from the ﬂight, did not personally witness the

App. 24
interaction between Mr. Karrani and Ms. Pancerman.
Dkt. #84 at 11-12 (citing 14 C.F.R. § 91.3(a)). It likewise
remains undisputed that Captain Ouillette based his
decision on Ms. Pancerman’s account of the incident
that was corroborated by a second ﬂight attendant. See
id. at 12; see also Dkt. #54 at §§ 7-8 (“Based on the report of the physical contact by a passenger with a crewmember and failure to abide by a crewmember’s
instruction, I made the decision to remove the involved
passenger from the ﬂight.”). Even in instances where
ﬂight attendants have provided exaggerated or false
information to the captain, a court’s inquiry “nevertheless depends on the reasonable belief of the captain.”
Dkt. #84 at 13 (collecting cases). The guidance provided in non-binding operation manuals or training
materials therefore cannot eliminate a captain’s discretion to rely on the representations of his ﬂight crew.
For the reasons set forth above, neither the FAM
§ 7 nor the anticipated information in the PM or training materials justify the “extraordinary remedy” requested by Plaintiff. Carroll, 342 F.3d at 945.
Accordingly, the Court DENIES Plaintiff ’s Motion to
alter or amend the judgment.
F. Sanctions
Finally, the Court will address Plaintiff ’s Motion
for Sanctions. Dkt. #86. Plaintiff argues that sanctions are appropriate given JetBlue’s misleading and
bad faith representations related to the FAM § 7, the
PM, and the training materials, which he claims

App. 25
constituted “a complete failure to respond” and unfairly tainted the summary judgment process. Id. at
9-10. Plaintiff requests that the Court take several actions: (1) strike the summary judgment order; (2) order
JetBlue to produce the PM and any responsive pilot
training materials; (3) strike JetBlue’s Answer and enter default judgment for Plaintiff; (4) award Plaintiff
costs and fees to date for prevailing under his § 1981
claim; (5) order JetBlue to post all court orders on its
Welcome webpage for ninety consecutive days under
the heading “Court Sanctions JetBlue”; and (6) set a
trial date on the damages question. Id. at 10-11. Plaintiff states that the factors “weigh in favor of the harshest sanction; no other lesser sanctions will do.” Id. at
13.
Federal Civil Rule 37 provides that a court may
order sanctions against a disobedient party, including
entry of a judgment by default, where the party fails to
respond to interrogatories or requests for document
production. Fed. R. Civ. P. 37(d). Courts have refrained
from awarding sanctions under Rule 37(d) “unless
there is a total failure to respond to the discovery requests.” Badalamenti v. Dunham’s, Inc., 896 F.2d 1359,
1363 (Fed. Cir. 1990) (citing Fjelstad v. Am. Honda Motor Co., 762 F.2d 1334, 1339-40) (9th Cir. 1985)). As set
forth above, the Court is not persuaded that JetBlue
engaged in discovery misconduct warranting the extraordinary remedy of vacating the judgment, nor that
the summary judgment process was unfairly tainted.
Accordingly, the Court DENIES Plaintiff ’s request for
sanctions.

App. 26
IV.

CONCLUSION

For the foregoing reasons, the Court ﬁnds that
Plaintiff has failed to present new evidence warranting
relief under Rule 59(e) or clear and convincing evidence of discovery misconduct warranting relief under
Rule 60(b)(3).
Accordingly, and after having reviewed the relevant brieﬁng and the remainder of the record, the
Court hereby ﬁnds and ORDERS that:
(1) JetBlue’s Motions to Strike, Dkts. #99, #100,
are GRANTED. Plaintiff ’s Proposed Findings of Fact
and Conclusions of Law, Dkts. #86-1, #87-1, are
stricken.
(2) Plaintiff ’s Motion to Alter or Amend the
Judgment, Dkt. #87, is DENIED.
(3) Plaintiff ’s Motion for Sanctions, Dkt. #86, is
DENIED.
DATED this 19 day of November 2019.
/s/ Ricardo S. Martinez
RICARDO S. MARTINEZ
CHIEF UNITED STATES
DISTRICT JUDGE

App. 27
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
ABDIKARIM KARRANI,

Case No. C18-1510 RSM

Plaintiff,

ORDER GRANTING
DEFENDANT’S
MOTION FOR
SUMMARY JUDGMENT

v.
JETBLUE AIRWAYS
CORPORATION, a
Delaware corporation,

(Filed Jul. 31, 2019)

Defendant.
I.

INTRODUCTION

This matter comes before the Court on Defendant
JetBlue Airways Corporation (“JetBlue”)’s Motion for
Summary Judgment. Dkt. #52. Plaintiff Abdikarim
Karrani opposes JetBlue’s Motion in entirety. Dkt. #69.
The Court has determined that oral argument is not
necessary. Having reviewed the Motion, Plaintiff ’s Response, Defendant’s Reply, and all documents submitted in support thereof, the Court GRANTS Defendant’s
Motion for Summary Judgment.
II.

BACKGROUND

Plaintiff claims that JetBlue discriminated against
him on the basis of his race, national origin, and/or ethnicity under 42 U.S.C. § 1981 by wrongfully removing
him from an airline ﬂight. Mr. Karrani is an 81-yearold U.S. citizen born in Somalia who now resides in

App. 28
Washington state. On January 20, 2018, Mr. Karrani
was returning home on JetBlue Flight 263 from New
York bound for Seattle when a medical emergency
occurred in Row 1. Dkt. #53-2 at 5. The medical emergency required the plane to make an emergency landing in Billings, Montana shortly thereafter. During the
plane’s descent into Billings, Mr. Karrani—whose age
and diabetic condition causes him to experience sudden and urgent needs to use the restroom—attempted
to use the lavatory at the front of the plane and found
it occupied by another passenger. Dkt. #53-7 at 4. After
shutting the door, Mr. Karrani proceeded to stand outside the bathroom. Noticing Mr. Karrani waiting next
to the restroom, JetBlue ﬂight attendant Cynthia (i.e.
Cindy) Pancerman approached to direct him to the
back lavatory. Id.
The precise details of what happened between Ms.
Pancerman and Mr. Karrani remain a dispute of fact.
Ms. Pancerman claims that she attempted to guide Mr.
Karrani towards the back lavatory and, in response,
Mr. Karrani hit her. Dkt. #68-1 at 50-51. Mr. Karrani,
in contrast, claims that Ms. Pancerman initiated physical contact by pushing him towards the back and, startled and anxious, he attempted to brush her hand off
him. Dkt. #53-7 at 5. According to Mr. Karrani, Ms.
Pancerman did not say anything else to him except:
“Go to the back one.” Id. After this interaction, Mr. Karrani proceeded to the back of the plane to use the back
lavatory. It is undisputed that the plane’s captain, Captain Mitchell Ouillette, was not a witness to the event.

App. 29
During the plane’s ﬁnal descent into Billings, the
pilots in the cockpit—Captain Ouillette and co-pilot
Michael Cheney—received a call from Ms. Pancerman.
While the parties dispute what details Ms. Pancerman
provided to the pilots regarding her interaction with
Mr. Karrani, it is undisputed that during the plane’s
ﬁnal approach into Billings, a call was made from the
cockpit requesting law enforcement to meet the airplane upon landing. Dkt. #68-1 at 10-11. Once the
plane landed, airport police boarded the plane and escorted Mr. Karrani off the plane. Dkt. #537 at 6.
After interviewing witnesses, airport police officer Randy Winkley issued an incident report and
determined that he would not charge Mr. Karrani with
assault. Dkt. #68-1 at 106, 116. However, Captain Ouillette did not allow Mr. Karrani to re-board the ﬂight.
Id. at 111. As a result, while the remaining passengers
were transported to Seattle, Mr. Karrani was driven by
police to a hotel in Billings to stay overnight. The next
day, he purchased a new ﬂight on Delta from Billings
to Seattle which JetBlue did not refund, even after he
reported his ordeal to a JetBlue supervisor at Seattle
Tacoma airport. Dkt. #1 at 5. On October 15, 2018, Mr.
Karrani ﬁled this lawsuit. JetBlue now seeks summary
judgment on Plaintiff ’s claims under 42 U.S.C. § 1981
on the basis that Mr. Karrani has not raised a triable
issue of fact that his removal from Flight 263 was because of his race, ethnicity, or national origin.

App. 30
III.

DISCUSSION

A. Plaintiff ’s Request for Judicial Notice
As a preliminary matter, Plaintiff requests that
this Court take judicial notice of several documents
published by the U.S. Department of Transportation
(“DOT”). See Dkt. #60. Speciﬁcally, Plaintiff requests
judicial notice of two DOT guidance documents related
to passenger discrimination in air travel, see Dkt. #601 at 4-15, and four Consent Orders issued by DOT
against domestic airline carriers for discriminatory removal of minority passengers from aircrafts, see Dkt.
#60-1 at 16-35. Federal Rule of Evidence 201 provides
that courts may take judicial notice of adjudicative
facts “generally known within the territorial jurisdiction of the trial court” or “capable of accurate and ready
determination by resort to sources whose accuracy
cannot reasonably be questioned.” Jespersen v. Harrah’s Operating Co., Inc., 444 F.3d 1104, 1110 (9th Cir.
2006) (en banc) (quoting Fed. R. Evid. 201) (internal
quotations omitted). JetBlue does not dispute that the
records at issue are self-authenticating pursuant to
Fed. R. Evid. 902(5), Dkt. #66 at 2, so the remaining
issue is whether the documents are a proper subject of
judicial notice.
Plaintiff ’s request the Court take judicial notice
with respect to the existence of these materials—speciﬁcally, that DOT has issued non-binding policy guidance that airlines may use to prevent discrimination
against passengers, and that DOT has adjudicated various claims against airlines alleging discriminatory

App. 31
removal. See Interstate Nat. Gas Co. v. S. California
Gas Co., 209 F.2d 380, 385 (9th Cir.1953) (A court “may
take judicial notice of records and reports of administrative bodies.”). While JetBlue opposes judicial notice
of these materials, its opposition chieﬂy addresses
what inferences and conclusions the Court may draw
from their contents. Whether to take judicial notice in
the ﬁrst instance is a separate inquiry from how the
Court may rely on the contents of the documents. Accordingly, the Court grants Plaintiff ’s request.
B. Parties’ Motions to Strike
Pursuant to Fed. R. Civ. P. 56(e) and Local Rule
7(g), Plaintiff and JetBlue move to strike various documents on the grounds that a court may not consider
improper lay opinions, unauthenticated documents, or
inadmissible hearsay statements on summary judgment. Dkt. #69 at 16; Dkt. #72 at 10-11. Because the
Court does not rely on any of the cited documents in its
decision to grant summary judgment, the issue is
moot.
C. Legal Standard for Summary Judgment
Summary judgment is appropriate where “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a); Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247 (1986). Material
facts are those which might affect the outcome of the
suit under governing law. Id. at 248. In ruling on

App. 32
summary judgment, a court does not weigh evidence to
determine the truth of the matter, but “only determine[s] whether there is a genuine issue for trial.”
Crane v. Conoco, Inc., 41 F.3d 547, 549 (9th Cir. 1994)
(citing Federal Deposit Ins. Corp. v. O’Melveny & Meyers, 969 F.2d 744, 747 (9th Cir. 1992)).
On a motion for summary judgment, the court
views the evidence and draws inferences in the light
most favorable to the non-moving party. Anderson, 477
U.S. at 255; Sullivan v. U.S. Dep’t of the Navy, 365 F.3d
827, 832 (9th Cir. 2004). The Court must draw all reasonable inferences in favor of the non-moving party.
See O’Melveny & Meyers, 969 F.2d at 747, rev’d on other
grounds, 512 U.S. 79 (1994). However, the nonmoving
party must make a “sufﬁcient showing on an essential
element of her case with respect to which she has the
burden of proof ” to survive summary judgment. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
D. Discriminatory Removal of Airline Passengers under 42 U.S.C. § 1981(a)
Mr. Karrani claims that his removal from Flight
263 constitutes discrimination under 42 U.S.C. § 1981(a).
Section 1981 provides, in relevant part: “All persons
within the jurisdiction of the United States shall have
the same right in every State and Territory to make
and enforce contracts, to sue, be parties, give evidence,
and to the full and equal beneﬁt of all laws and proceedings for the security of persons and property as is
enjoyed by white citizens. . . .” 42 U.S.C. § 1981(a). A

App. 33
claim under Section 1981 requires a plaintiff to show
intentional discrimination on account of race. Evans v.
McKay, 869 F.2d 1341, 1344 (9th Cir. 1989) (citing Gen.
Bldg. Contractors Ass’n, Inc. v. Pennsylvania, 458 U.S.
375, 376 (1982)). To establish a prima facie case under
Section 1981, a plaintiff must prove: “(1) that they are
members of a racial minority; (2) that the defendants
had an intent to discriminate on the basis of race; and
(3) that the discrimination concerned one or more activities enumerated in the statute.” Modoc v. W. Coast
Vinyl, Inc., No. 10-cv-05007-RJB, 2011 WL 1363785, at
*7 (W.D. Wash. Apr. 11, 2011). There is no dispute that
Plaintiff, a man of Somali origin with an accent, meets
the ﬁrst element. Parties likewise do not dispute the
third element, since Plaintiff claims discrimination in
his right to contract with JetBlue through purchase of
an airline ticket. The Court’s focus on this summary
judgment motion is therefore the second element:
whether a reasonable dispute of fact exists as to
whether JetBlue intended to discriminate against Mr.
Karrani on the basis of race, ethnicity, or national
origin.
To prove intentional discrimination under Section
1981, a plaintiff must prove racial animus either
through direct evidence, such as derogatory or offensive comments, or through circumstantial evidence.
Lindsey v. SLT Los Angeles, LLC, 447 F.3d 1138, 1152
(9th Cir. 2006). Plaintiff offers no direct evidence of discrimination by Ms. Pancerman, Captain Ouillette, or
any other member of the JetBlue ﬂight crew. See generally Dkt. #69. Consequently, Plaintiff s Section 1981

App. 34
claim hinges on circumstantial evidence to create an
inference of discrimination against Mr. Karrani. Id. at
20-21.
Circumstantial evidence for individual claims of
discrimination is evaluated under the McDonnell
Douglas framework. White v. Cal., 754 Fed. Appx. 575,
576 (9th Cir. 2019). Under this burden-shifting framework, a plaintiff must ﬁrst establish a prima facie case
proving (1) he is a member of a protected class; (2) he
attempted to contract for certain services; (3) he was
denied the right to contract for those services; and (4)
such services remained available to similarly-situated
individuals who were not members of plaintiff ’s protected class. Lindsey, 447 F.3d at 1144-45 (9th Cir.
2006). If a plaintiff establishes a prima facie case, then
the burden shifts to the defendant to demonstrate a legitimate, non-discriminatory reason for the adverse action. Upon doing so, the burden shifts back to plaintiff
to prove, with “speciﬁc and substantial” evidence, that
the reason was merely pretext for intentional discrimination. Id. at 1152.
1. Mr. Karrani’s prima facie case of discrimination
Parties do not dispute that Plaintiff satisﬁes the
ﬁrst three elements. On the fourth element, Plaintiff
does not attempt to argue that he was treated differently from similarly-situated individuals on his ﬂight.
Instead, he contends that the “similarly-situated”
standard “is not an appropriate requirement for a

App. 35
prima face [sic] case and is unnecessary here[.]” Dkt.
#69 at 27. Plaintiff urges this Court to follow Sixth Circuit precedent and convert this fourth element to the
standard of whether plaintiff received services in a
markedly hostile manner and a manner in which a reasonable person in plaintiff ’s circumstances would ﬁnd
objectively discriminatory. Dkt. #69 (citing Christian
v. Wal–Mart Stores, Inc., 252 F.3d 862, 872 (6th
Cir.2001)). However, the Ninth Circuit has not expressly adopted this modiﬁcation of the McDonnell
Douglas framework. Lindsey, 447 F.3d at 1145 (9th Cir.
2006) (“Although we ﬁnd the Sixth Circuit’s reasoning
compelling, we need not decide today whether its modification of the fourth element of a prima facie case
under section 1981 is required in many or all cases
arising in a commercial, non-employment context.”).
Because of this open question, courts within the Ninth
Circuit have continued to apply the traditional “similarly-situated” standard while acknowledging that the
outcome would not change under the “reasonable person” standard. See Portfolio Investments, LLC v. First
Sav. Bank, No. C12-104 RAJ, 2013 WL 1187622, at *5
(W.D. Wash. Mar. 20, 2013), aff ’d sub nom. Portfolio Investments LLC v. First Sav. Bank Nw., 583 F. App’x 814
(9th Cir. 2014); Harrison v. Wells Fargo Bank, N.A., No.
C18-07824 WHA, 2019 WL 2085447, at *3 (N.D. Cal.
May 13, 2019).
Here, however, the Court is faced with two different outcomes depending on the standard applied. Under the traditional “similarly situated” standard, there
is no question that Plaintiff has failed to establish a

App. 36
prima facie case. He has provided no evidence of “similarly situated” passengers on Flight 263, nor does he
attempt to. However, application of the “similarly situated” standard to this case gives rise to the very concern identiﬁed by the Ninth Circuit in Lindsey—that
in the commercial, non-employment context such as an
airline ﬂight, the “similarly situated” requirement is
perhaps “too rigorous.” Lindsey, 447 F.3d at 1145. It
would require Mr. Karrani to identify passengers on
Flight 263 meeting an extremely speciﬁc set of requirements: those who attempted to use the front lavatory
during the medical emergency but received different
treatment from the ﬂight attendants, or those who engaged in an alleged conﬂict with a ﬂight attendant but
were allowed by the captain to continue ﬂying. In contrast, under the “reasonable person” standard, a jury
viewing the facts in a light most favorable to Plaintiff
could reasonably conclude that an 81-year-old man
was treated by JetBlue in a “markedly hostile manner”
based on a ﬂight attendant initiating physical contact
with him and lying about the events to the Captain,
culminating in his removal from the aircraft by airport
police and stranding him overnight in an unfamiliar
city. See Christian, 252 F.3d at 871 (6th Cir.) (setting
forth “markedly hostile” factors). Given these two disparate outcomes and the Ninth Circuit’s open question
regarding the proper standard, the Court ﬁnds it necessary to proceed through the remainder of the
McDonnell Douglas framework to evaluate Plaintiff ’s
claim.

App. 37
2. JetBlue has articulated a legitimate,
non-discriminatory reason for Mr
Karrani’s removal.
Having found that Plaintiff has presented a triable issue of fact as to his prima facie case of discrimination, the burden shifts to JetBlue to provide a
legitimate, non-discriminatory reason for the adverse
action. It is undisputed that JetBlue has articulated
such a reason under Section 44902 of the Federal Aviation Act, which provides that an air carrier “may refuse to transport a passenger or property the carrier
decides is, or might be, inimical to safety.” 49 U.S.C.
§ 44902. See Dkt. #52 at 6-7.
3. Plaintiff has not raised a triable issue of fact that his removal from
Flight 263 was because of his race.
Once a defendant presents a legitimate, non-discriminatory reason for its actions, the presumption of
discrimination “drops out of the picture” and the burden shifts back to plaintiff to prove the proffered reasons were a pretext for discrimination. Lindsey, 447
F.3d at 1148 (quoting St. Mary’s Honor Ctr. v. Hicks,
509 U.S. 502, 510-11 (1993)) (internal quotations omitted). Plaintiff may prove pretext one of two ways:
(1) indirectly, by showing the defendant’s proffered explanation is “unworthy of credence,” or (2) directly, by
showing that unlawful discrimination more likely motivated the defendant. Chuang v. Univ. of Cal. Davis,
Bd. of Trs., 225 F.3d 1115, 1127 (9th Cir. 2000). The
Court ﬁnds that (1) JetBlue’s decision to remove Mr.

App. 38
Karrani was proper as a matter of law; and (2) Plaintiff
has presented no triable issue of fact that unlawful discrimination more likely motivated JetBlue. Accordingly, Plaintiff has not raised a triable issue of fact that
his removal from Flight 263 was because of his race,
and summary judgment in favor of JetBlue is warranted. Wallis v. J.R. Simplot Co., 26 F.3d 885, 890-91
(9th Cir. 1994), as amended on denial of reh’g (July 14,
1994) (“[W]hen evidence to refute the defendant’s legitimate explanation is totally lacking, summary judgment is appropriate even though plaintiff may have
established a minimal prima facie case based on a
McDonnell Douglas type presumption.”).
a. The undisputed facts establish
that Captain Ouillette appropriately exercised his discretion under Section 44902 in removing Mr.
Karrani and prohibiting him from
re-boarding.
As a matter of law, JetBlue appropriately exercised its discretion to remove Mr. Karrani from the
ﬂight pursuant to its authority under Section 44902.
Section 44902 provides that an air carrier “may refuse
to transport a passenger or property the carrier decides is, or might be, inimical to safety.” 49 U. S.C.
§ 44902 (emphasis added). The Ninth Circuit has interpreted this provision as follows:
The test of whether or not the airline
properly exercised its power under § 1511 [now
§ 44902] to refuse passage to an applicant

App. 39
or ticket-holder rests upon the facts and circumstances of the case as known to the airline
at the time it formed its opinion and made its
decision whether or not the opinion and decision were rational and reasonable in the light
of those facts and circumstances. They are not
to be tested by other facts later disclosed by
hindsight.
Cordero v. Cia Mexicana De Aviacion, S.A., 681 F.2d
669, 672 (9th Cir. 1982) (quoting Williams v. Trans
World Airlines, 509 F.2d 942, 948 (2d. Cir. 1975)).
The threshold for an airline determining that a
passenger presents a possible safety issue is very low,
given the countervailing interest of the airline to ensure the safety and security of its other passengers
and flight crew. For that reason, courts grant airlines
broad latitude to determine what constitutes a “safety
risk”—even if the matter seems innocuous. See Shaffy
v. United Airlines, Inc., 360 F. App’x 729, 730 (9th Cir.
2009) (Upholding summary judgment for airline where
passenger who repeatedly removed dog from carrier—
against ﬂight attendant instruction to keep it contained—posed “safety risk” justifying removal from
aircraft). This is because in the business of commercial
air travel, “the highest priority is assigned to safety,
even though the federal aviation statute also has a
general prohibition on race and national origin discrimination.” Cerqueira, 520 F.3d at 11 (1st Cir. 2008).
The pilot in command holds the decision-making
authority to remove a passenger from a flight. 14
C.F.R. § 91.3(a). A passenger’s removal is proper under

App. 40
Section 44902 so long as the pilot’s decision is not arbitrary or capricious. Cordero, 681 F.2d at 671-72 (“[I]f
the passenger is excluded because the opinion of the
pilot is arbitrary or capricious and not justiﬁed by any
reason or rational appraisal of the facts, then the denial of passage is discriminatory.”). Plaintiff relies on
dicta from Eid v. Alaska Airlines, Inc. to argue that
Cordero actually applied a standard of reasonableness—not arbitrariness/capriciousness—to passenger
removal from domestic ﬂights. Dkt. #69 at 30 (citing
621 F.3d 858, 868 (9th Cir. 2010)). However, as afﬁrmed
in Shaffy, Cordero plainly adopted the arbitrary and
capricious standard set forth by the Second Circuit in
Williams. Shaffy, 360 F. App’x at 730 (“The test for
whether a refusal to transport is permissible ‘rests
upon . . . whether or not the opinion and decision were
rational and reasonable and not capricious or arbitrary.”) (citing Cordero, 681 F.2d at 672). Accordingly,
this Court follows the binding precedent in Shaffy and
applies the arbitrary and capricious standard to passenger removal from domestic ﬂights under 49 U.S.C.
§ 44902. Accord Mercer v. Sw. Airlines Co., No. 13-CV05057-MEJ, 2014 WL 4681788, at *3 (N.D. Cal. Sept.
19, 2014) (understanding Cordero as applying arbitrary and capricious standard).
Under the arbitrary and capricious standard, Captain Ouillette’s decision to remove Mr. Karrani was
proper as a matter of law. Taking Mr. Karrani’s account
of the incident to be true, Ms. Pancerman pushed Mr.
Karrani after he refused to use the back lavatory and
then falsely reported to the captain that Mr. Karrani

App. 41
pushed her. Although several passengers contested Ms.
Pancerman’s account of events, see, e.g., Dkt. #68-1 at
10-11; 166, a second ﬂight attendant corroborated her
story. Id. at 155. Parties dispute what details Ms. Pancerman reported to the cockpit and at what point the
captain made his decision to remove Mr. Karrani—
whether during the descent into Billings, or upon landing. See Dkt. #69 at 9-10. There is likewise a dispute of
fact as to the type of physical touch that Ms. Pancerman claims occurred—speciﬁcally, whether it was a hit
or a push. See id. However, it is undisputed that Captain Ouillette did not personally witness the interaction between Mr. Karrani and Ms. Pancerman. It is
likewise undisputed that he based his decision to remove Mr. Karrani on a ﬂight attendant’s account, corroborated by a second ﬂight attendant, that Plaintiff
touched her in an inappropriate way that she considered assault after she directed him to use the back lavatory. See Dkt. #68-1 at 20.
Plaintiff argues that 49 U.S.C. § 44902 required
Captain Ouillette to do more than defer to his ﬂight
attendants—rather, he should have independently investigated the different versions of events when deciding whether to remove Mr. Karrani. Dkt. #69 at 28-30.
The cases cited by Plaintiff do not support this proposition. Unlike Cordero, where the ﬂight attendant
identiﬁed the wrong passenger for removal, this case
does not involve a problem of mistaken identity requiring more careful action by the Captain—it is undisputed that Mr. Karrani had the alleged conﬂict with
Ms. Pancerman. Cf. Cordero, 681 F.2d at 670-72. Id.

App. 42
Likewise, Eid addresses removal of passengers under
the Tokyo Convention, not the Federal Aviation Act,
wherein the court applied a standard of “reasonableness.” Cf. Eid, 621 F.3d at 869-71. Plaintiff also cites to
language in DOT’s guidance documents and administrative orders to show that Captain Ouillette was obligated to conduct an independent factual investigation.
However, as Plaintiff acknowledges, such material
does not set forth legally binding law. See Dkt. #69 at
29 (arguing that DOT materials should be entitled to
deference).
On the contrary, courts analyzing the lawfulness
of a captain’s removal decision routinely consider only
that information acted upon by the captain—not the
information “he reasonably should have known.”
Cerqueira, 520 F.3d at 14-15 (1st Cir. 2008) (emphasis
added); see also Dasrath, 467 F.Supp. 2d at 446 (“[I]f
[the Captain] reasonably believed that something had
taken place (even if it had not), his reasonable belief is
what is critical, not what actually took place.”). Consequently, in instances such is this one, where ﬂight attendants may have provided exaggerated or false
information to the captain, the inquiry nevertheless
depends on the reasonable belief of the captain. See
Christel v. AMR Corp., 222 F. Supp. 2d 335, 340
(E.D.N.Y. 2002) (Granting summary judgment for airline where plaintiff/passenger claimed pilot who ordered removal was provided with false information by
a member of the ﬂight crew, despite thirteen passengers offering to corroborate passenger’s story); see also
Al-Qudhai’een v. Am. W. Airlines, Inc., 267 F. Supp. 2d

App. 43
841, 848 (S.D. Ohio 2003) (“[Captain] is entitled to rely
on the information provided to him by his crew despite
any exaggerations or false representations.”). As a
matter of law, Captain Ouillette’s decision to believe
his ﬂight attendants—without conducting his own factual investigation—was not arbitrary and capricious.
Lastly, Plaintiff argues that JetBlue was obligated
to allow Mr. Karrani to re-board the ﬂight after he
spoke with police. In support of this proposition, Plaintiff again relies on language from non-binding DOT administrative orders. Dkt. #69 at 29. Even if these
administrative orders are entitled to a level of deference, they do not support Plaintiff ’s proposition that
JetBlue was required to allow Mr. Karrani to re-board
after he spoke with police about his conﬂict with Ms.
Pancerman. The referenced orders involve passengers
initially removed from an aircraft to conduct secondary
security screening. See Dkt. #60-1 at 27-28; 32. Here,
Plaintiff was removed after an alleged physical altercation with a flight attendant—not so that the airline could conduct secondary screening. Mr. Karrani’s
meeting with police is not analogous to a secondary security screening that effectively “clears” an individual
to ﬂy upon further inspection. Accordingly, Plaintiff
has raised no material dispute that JetBlue exceeded
its authority under Section 44902 in prohibiting Mr.
Karrani from re-boarding.

App. 44
b. Plaintiff has not raised a triable
issue of fact that unlawful discrimination more likely motivated JetBlue’s actions.
Plaintiff has likewise failed to raise a material dispute of fact that unlawful discrimination more likely
motivated JetBlue’s actions. As proof of racial animus,
Plaintiff relies on testimony from a passenger on a
2016 JetBlue ﬂight who claimed that Ms. Pancerman
racially discriminated against her two years prior to
Mr. Karrani’s ﬂight. Dkt. #69 at 10. While courts typically view past complaints by others within a protected
class as only “collaterally relevant” to private, nonclass action discrimination lawsuits, such evidence
may be relevant “in limited circumstances where a
plaintiff can make some showing to connect it to his or
her claims.” Walech v. Target Corp., No. C11-254 RAJ,
2012 WL 1068068, at *7 (W.D. Wash. Mar. 28, 2012)
(emphasis added). Likewise, DOT has indicated that in
evaluating claims against airlines for discriminatory
removal, prior complaints of discrimination by a crew
member can be “essential” evidence for investigating
such claims. Dkt. #60-1 at 24. In accordance with this
view, this Court granted Plaintiff ’s request to compel
production of unredacted passenger complaints ﬁled
against Ms. Pancerman in the last ten years to determine whether Mr. Karrani’s removal ﬁt a larger pattern of Ms. Pancerman mistreating and/or unfairly
removing racial minorities from JetBlue ﬂights. See
Dkt. #77 at 4. This discovery order compelled JetBlue
to produce the names of all persons who submitted

App. 45
complaints against Ms. Pancerman, which Plaintiff estimated could amount to seven individuals who complained about her conduct on six ﬂights. Dkt. #36 at 3.
Despite this broad scope of discovery of complaints
against Ms. Pancerman, Plaintiff only proffers testimony from Fatima Wachuku, who was removed from a
JetBlue ﬂight in 2016, as evidence of Ms. Pancerman’s
racial animus against Mr. Karrani. In recalling her interaction with Ms. Pancerman, Ms. Wachuku concludes
that her mistreatment could only be explained by racial animus: “[T]here’s no other reason why you would
sit here and try to create a commotion like this. . . . So
what would be the cause for you to do this other than
my race?” Dkt. #68-1 at 88. Although Plaintiff also references removal of a second black woman from Ms. Wachuku’s 2016 ﬂight, see Dkt. #68-1 at 88, Plaintiff does
not allege that Ms. Pancerman was involved. See Dkt.
#69 at 12. Moreover, this Court previously determined
that the removal of the second woman had no clear
connection to Ms. Pancerman. See Dkt. #77 at 8. In
sum, Plaintiff ’s circumstantial evidence is predicated
on one individual’s testimony that Ms. Pancerman’s
animus towards her could only be explained by racial
animus.
No reasonable jury could ﬁnd that Ms. Wachuku’s
testimony amounts to speciﬁc or substantial evidence
of racial animus against Mr. Karrani. It is not speciﬁc,
as it merely states a conclusion drawn by a passenger
on a ﬂight, two years prior to Mr. Karrani’s. Nor is it
substantial, as it represents one story out of what
Plaintiff has indicated are multiple complaints against

App. 46
Ms. Pancerman for unfairly demanding passengers’ removal. See Dkt. #36 at 3. On the contrary, another person’s circumstantial evidence of discrimination by the
same bad actor is hardly sufﬁcient to establish even a
prima facie inference of discriminatory animus. See
Santos v. Peralta Cmty. Coll. Dist., No. C-07-5227 EMC,
2009 WL 3809797 (N.D. Cal. Nov. 13, 2009) (Holding
evidence insufﬁcient to establish prima facie discrimination case where both plaintiff and co-worker alleged
mistreatment by supervisor). Given that Plaintiff has
not raised a material dispute of fact regarding Ms.
Pancerman’s racial animus towards Mr. Karrani, it is
unnecessary to reach the question of whether a ﬂight
attendant’s racial bias is imputable to Captain Ouillette, who held the ultimate decision-making authority
on Plaintiff ’s removal from the ﬂight.
For the foregoing reasons, while the Court is sympathetic to the ordeal suffered by Mr. Karrani during
his travels home, he has not raised a triable issue of
fact that JetBlue’s decision to remove him from the
ﬂight was due to his race. Given the power held by
ﬂight attendants to report safety issues to a plane’s
captain, the disputed facts of this case raise the question of whether ﬂight attendants who routinely request removal of passengers should be subject to closer
scrutiny by an airline’s management to ensure such issues are reported with honesty and integrity. However,
such a question lies outside the scope of this case and
is not within the province of this Court to answer.

App. 47
IV.

CONCLUSION

Having reviewed the relevant brieﬁng, attached
declarations, and the remainder of the record, the
Court hereby ﬁnds and ORDERS that Defendant JetBlue’s Motion for Summary Judgment (Dkt. #52) is
GRANTED in entirety. This case is now CLOSED.
DATED this 31 day of July 2019.
/s/ Ricardo S. Martinez
RICARDO S. MARTINEZ
CHIEF UNITED STATES
DISTRICT JUDGE

App. 48
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ABDIKARIM KARRANI,
Plaintiff-Appellant,
v.
JETBLUE AIRWAYS
CORPORATION, a
Delaware corporation,
Defendant-Appellee.

No. 19-35739
D.C. No.
2:18-cv-01510-RSM
Western District of
Washington, Seattle
ORDER
(Filed Nov. 25, 2020)

Before: GRABER and W. FLETCHER, Circuit Judges,
and FREUDENTHAL,* District Judge.
The panel judges have voted to deny Appellant’s
petition for rehearing. Judges Graber and Fletcher
voted to deny the petition for rehearing en banc, and
Judge Freudenthal recommended denying the petition
for rehearing en banc.
The full court has been advised of Appellant’s petition for rehearing en banc, and no judge of the court
has requested a vote on it.
Appellant’s petition for panel rehearing and rehearing en banc, Docket No. 61, is DENIED.

* The Honorable Nancy D. Freudenthal, United States District Judge for the District of Wyoming, sitting by designation.

